   AUDIT REPORT

U.S. Fish and Wildlife Service
 Federal Assistance Grants
Administered by the State of
Iowa, Department of Natural
Resources from July 1, 2000,
           through
        June 30, 2002




  Report No. R-GR-FWS-0022-2003

                         July 2004
                U
                Unniitteedd SSttaatteess D          meenntt ooff tthhee IInntteerriioorr
                                         Deeppaarrttm
                           OFFICE OF INSPECTOR GENERAL
                                         External Audits
                               12030 Sunrise Valley Drive, Suite 230
                                       Reston, VA 20191
                                                                                           July 29, 2004

                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Joe Ansnick
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the State of Iowa, Department of Natural Resources
           from July 1, 2000, through June 30, 2002 (No. R-GR-FWS-0022-2003)


        This final report presents the results of our audit of costs incurred by the State of Iowa,
Department of Natural Resources (Department), under its hunting and fishing programs and
costs claimed under Federal Assistance grants from the U.S. Fish and Wildlife Service (FWS).
The audit included claims that totaled approximately $19.5 million on FWS grants that were
open during the State’s fiscal years ended June 30, 2001, and 2002 (see Appendix 1).

        We found the Department did not report program income of $1,290,424. In addition, the
Department may have used Federal Assistance Funds to maintain management areas acquired
under the Land and Water Conservation Fund program, which the State had agreed to maintain at
its own expense. Finally, the Department’s management and control of personal property assets
are in need of improvement.

        The Department of Natural Resources and FWS Region 3 responded to a draft of this
report on June 23, 2004. We have added the responses after our recommendations and
summarized the status of the recommendations in Appendix 3.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response to the recommendations included in this report by October 29, 2004. Your
response should include information on actions taken or planned, including target dates and titles
of officials responsible for implementation. If you have any questions regarding this report,
please contact me or Richard O’Brien, Team Leader, at (703) 487-5345.

cc:   Regional Director, Region 3
       U.S. Fish and Wildlife Service
                                             Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize the U.S. Fish and Wildlife Service (FWS) to provide Federal Assistance
grants to states to enhance their sport fish and wildlife programs. The Acts provide for FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. They also
specify that state hunting and fishing license revenues cannot be used for any purpose other than
the administration of the state’s fish and game agencies.

Scope, Objective, and Methodology
We performed our audit at the Department of Natural Resources (the Department) headquarters
in Des Moines, Iowa. The audit work at the Department included claims that totaled
approximately $19.5 million on FWS grants that were open during the State’s fiscal years
(SFYs) ended June 30, 2001, and 2002 (see Appendix 1). We also visited a fish hatchery and
several wildlife management areas, wildlife management units, research stations, and boat ramps
(see Appendix 2). The objective of our audit was to evaluate:

               ¾ the adequacy of the Department’s accounting system and related internal controls;
               ¾ the accuracy and eligibility of the direct and indirect costs claimed under the
                 Federal Assistance grant agreements with FWS;
               ¾ the adequacy and reliability of the Department’s hunting and fishing license fees
                 collection, certification and disbursement processes;
               ¾ the adequacy of the Department’s asset management system and related internal
                 controls with regard to purchasing, maintenance, control and disposal; and
               ¾ the adequacy of the State’s compliance with the Acts’ assent legislation
                 requirements

We performed our audit in accordance with government auditing standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Department to the grants; interviews with employees to ensure that personnel costs charged to
the grants were supportable; and a review of the Department’s use of fishing and hunting license
revenues to determine whether the revenues had been used for program purposes. No exceptions
were reported. We did not evaluate the economy, efficiency, and effectiveness of the
Department’s operations.




1
    As amended 16 U.S.C. § 669 and 16 U.S.C. § 777.

                                                      2
Prior Audit Coverage
On August 4, 1999, we issued audit report No. 99-E-197, “U.S. Fish and Wildlife Service
Federal Aid Grants to the State of Iowa, Department of Natural Resources, Fish and Wildlife
Division, for Fiscal Years Ended June 30, 1995, and 1996.” The State Auditor also issued single
audit reports on the State of Iowa for SFYs 2001 and 2002, but the Department was not audited
as a major program.

We reviewed these reports and followed up on all significant findings to determine whether they
had been resolved prior to our review. We determined that all but one finding in the audit of
Federal Aid Grants had been resolved. During our review, we found that some State and Federal
Assistance equipment items were either missing or lacked proper identification, such as a
property tag or manufacturer’s serial number (see Finding C). Although the State’s Single Audit
did not include the Sport Fish Restoration or Wildlife Restoration programs as major programs,
the State’s Comprehensive Annual Financial Report for SFYs 2001 and 2002 included
management letters disclosing internal control deficiencies within the Department. We
determined that the internal control deficiencies for equipment had not been corrected.




                                               3
                                    Results of Audit
Our audit disclosed that:

            ¾ except for finding A below, the Department’s accounting system and related
              internal controls adequately and accurately accounted for grant and license fee
              receipts and disbursements;
            ¾ direct and indirect costs claimed under the Federal Assistance grants agreements
              with FWS were adequately recorded and supported;
            ¾ the State had adequate assent legislation in place that prohibited the use of license
              fees for any purpose other than the administration of the Department.

During our audit, we found:

       A.      Unreported program income of $1,290,424,
       B.      Ineligible use of Federal Assistance funds on property acquired or constructed
               with Land and Water Conservation funds, and
       C.      Departmental asset management needs improvement.



A. Unreported Program Income of $1,290,424

The Department earned $2,504,979 in revenues generated on its wildlife management areas.
Although some revenues were identified as program income and reported on the respective
Financial Status Reports, SF-269s, the Department did not report $1,290,424 in program income
generated on eight wildlife management areas leased from the U.S. Army Corps of Engineers
(Corps).

The Department maintained 450 wildlife management areas under Grants FW-43-D-33 during
SFY 2001 and FW-43-D-34 during SFY 2002. The maintained areas included land owned by
the Department and land leased to the Department from other agencies, including the Corps. The
Department reported $1,214,555 of program income reported under Grants FW-43-D-33 and
FW-43-D-34 during SFYs 2001 and 2002. The income resulted from crop leases, sales of wood
and seedlings, and special fees for controlled hunts. The reported program income was deposited
into the Department’s Fish and Wildlife Fund, Fund 233. However, we found that an additional
$1,290,424 of program income was not reported. It was earned on areas leased from the Corps
and was deposited into Fund 498.

The Department leased 15 wildlife areas from the Corps in order to manage its fish and wildlife
activities. For eight of the areas, which were leased in February 1996, the leases included special
terms that allowed the Department to keep all funds received from operations conducted on the
leased lands and to use the receipts for planning and development of fish and wildlife habitat,
including the labor costs of employees directly engaged in such activities. These terms,
however, did not allow the Department to charge for general administrative expenses. In


                                                 4
addition, the Department was required to submit to the Corps an annual statement of receipts and
expenses related to its fish and wildlife management activities on the eight wildlife areas. For
the other seven areas leased from the Corps, the Department deposited receipts into and paid
expenses out of the Fish and Wildlife Fund (Fund 223).

The Department created Fund 498, separate from the Fish and Wildlife Fund, for the deposit of
revenues collected on the eight areas covered by the February 1996 leases and to track each
area’s revenues and expenses. We found that the Department did not collect enough revenues to
cover maintenance costs for some wildlife management areas. Other areas generated annual
surpluses. During SFYs 2001 and 2002, the Department collected and deposited$1,290,424 in
crop revenues into Fund 498. During the same 2-year period, $729,509 of maintenance expenses
was charged to Fund 498. By June 30, 2002, the accumulated surplus in Fund 498 was
$1,364,077.

According to 43 CFR § 12.65, program income is gross income received by a grantee directly
generated by a grant-supported activity. Ordinarily program income should be deducted from
total grant costs to determine net costs on which the grantor’s share will be based, or if
authorized, it may be added to the project funds to further eligible program objectives. In
addition, the grant agreement should identify the estimated amounts, sources, and method of
accounting for the program income.

Department officials told us they did not report the receipts because they were not aware that the
areas were maintained with Federal Assistance; accordingly, they did not consider them program
income. In addition, a Department official told us that they were saving the surpluses from the
eight Corps leases in order to fund major capital improvements.

We believe the Department should revise its SF-269s to report the $1,290,424 of program
income, $861,679 of additional program income under Grant FW-43-D-33, and $428,745 under
Grant FW-43-D-34.

       Recommendations
       We recommend that the FWS:

       1. Resolve the issue of the unreported program income of $1,290,424.

       2. Require the Department to identify all estimated program income in grant proposals.

       Department Response

       Department officials stated that only net revenues of $560,915 needed to be reported after
       deducting $729,509 of related expenses from the unreported program income of
       $1,290,424. They stated that the Department incurred costs that exceeded the matching
       requirements of these Grants by more than $560,915 anyway, which would result in no
       change to the Federal share of the project costs. They also pointed out that program
       income reported under these Grants is not all generated by Federally cost shared activities
       because the accounting costs associated with separating the income into Federal and non-

                                                5
       Federal amounts is too great and extremely difficult to do. Furthermore, they stated that
       the program income cannot belong to both the FWS and the Corps of Engineers. The
       Department proposed that in the future, it would report all Corps income and operation
       and maintenance expenses on the Grant’s Financial Status Reports, but not Corps
       expenses for capital projects.

       FWS Response

       Region 3 officials agreed with both OIG recommendations that the full amount of
       program income should be identified and reported, and any offsetting expenses should
       also be reported. The Region will work with the Department to develop a Corrective
       Action Plan (CAP). The CAP will include specific actions, responsible officials, due
       dates, and documentation needed to substantiate actions taken.

       Office of Inspector General Comments
       We consider the FWS response to be sufficient to consider this finding resolved. We will
       consider recommendations A.1 and A.2 implemented when the CAP is completed.

B. Ineligible Use of Federal Assistance Funds on Property Acquired or
   Constructed with Land and Water Conservation Funds
As stated in Finding A, the Department maintained approximately 450 wildlife management
areas with Federal Assistance funds during SFYs 2001 and 2002. However, 18 of the 450
wildlife areas contained either properties purchased or facilities constructed with Land and Water
Conservation funds, which may have made them ineligible to receive funds for their operation
and maintenance.

Sixteen areas maintained under Grants FW-43-D-33 and FW-43-D-34 were acquired with Land
and Water Conservation funds by the predecessor to the Department’s Fish and Game Division,
the Iowa Conservation Commission. Two facilities constructed in part with Land and Water
Conservation funds also received regular maintenance funding through Federal Assistance
Grants FW-43-D-33 and FW-43-D-34.

Paragraph 7.5B of Chapter 522 of the FWS Manual (522FW7.5B) states that Federal Assistance
funds cannot be used to operate or maintain properties or facilities purchased or constructed
under the Land and Water Conservation Fund Act (16 U.S.C. § 4601-8). Section 6(f)(1) of the
Land and Water Conservation Fund Act of 1965 requires States to operate and maintain by
acceptable standards, at State expense, the particular properties or facilities acquired or
developed for public outdoor recreation use. Chapter 660.2 of the National Park Service’s
L&WCF Grants Manual requires applicants for assistance to submit a signed and dated project
boundary map, which clearly delineates the area to be included. Generally, the area will be the
entire park, open space, or recreation area being developed to which the Land and Water Fund
property is being added. Areas to be excluded should also be identified.




                                                6
When we notified Department officials of this issue, they stated that they were unaware that
Land and Water Conservation funds had been used to purchase or develop portions of the 18
wildlife areas.

When we issued the Notice of Potential Finding and Recommendations, the Department’s Chief
of Wildlife pointed out that a prior version of the FWS Manual only prohibited maintenance of
facilities constructed or purchased with Land and Water Conservation funds, not land acquired
with Land and Water Conservation funds. He believed that the current version of the Service
Manual, issued in October 2001, which prohibits funding for both land and facilities, does not
apply to SFYs 2001 and 2002. In addition, he showed us that renewal documents approved by
FWS for the 6-year period from July 1, 2003 through June 30, 2009, for the operation and
maintenance program contain the prior Manual provisions.

The provisions of the Land and Water Conservation Act include properties as well as facilities in
its requirement that they be maintained at state expense. Section 6(f)(1) of the Land and Water
Conservation Fund Act of 1965, which requires states to maintain properties at State expense,
was effective January 1, 1965; accordingly, its provisions would apply to SFYs 2001 and 2002.

Another issue raised by Department officials was the actual area of land and facilities covered by
the operation and maintenance prohibition. They believed that only the actual land area acquired
and actual facilities constructed with Land and Water Conservation funds were covered based on
the Service Manual’s prohibition of using Federal Assistance for the operation and maintenance
of properties purchased or constructed with Land and Water Conservation funds. We believe
that the restricted areas should be defined by the Land and Water Conservation Fund project
agreements approved by the National Park Service (NPS) or its predecessor, the Heritage,
Conservation, and Recreation Service, and the NPS L&WCF Grants Manual, which requires that
the project area be delineated by a project boundary map.

The project agreement files were located on microfiche, but because a microfiche reader was not
available, we did not review them. In addition, we could not locate project boundary maps for
the 18 Land and Water Conservation Fund properties. They may be filed at NPS offices with the
site inspection reports, which are required to be completed every 5 years, or they may not exist.
We were told that, prior to 1984, project boundary maps were not required. In addition, the
Department’s accounting system did not account for costs at the management area level. The
lowest level of grant accounting was to the State’s 20 Wildlife Units. As a result, we were
unable to identify project areas or quantify an amount of Federal Assistance maintenance costs
associated with the 16 areas acquired and two facilities constructed with Land and Water
Conservation funds.

       Recommendations
       We recommend that the FWS:

       1. Request an opinion from the Solicitor about whether the prohibition against using
          Federal Assistance funds for operation and maintenance, as contained in the Land and
          Water Conservation Act and its implementing regulations, applies to project areas or
          to the properties acquired with Land and Water Conservation funds.


                                                7
Based on the Solicitor’s opinion,

2. Resolve the issue of Federal Assistance funds used during SFYs 2001 and 2002 to
   operate and maintain the 18 management areas either acquired or developed with
   Land and Water Conservation funds.

3. If necessary, require the Department to locate Land and Water Conservation project
   agreements and project boundary maps and use them to exclude Land and Water
   Conservation fund acquired properties and facilities from Federal Assistance grants
   for the maintenance of wildlife management areas.

4. Assist the Department in developing a methodology to discontinue using Federal
   Assistance funds in the future to operate and maintain project areas or lands and
   facilities acquired or developed with Land and Water Conservation funds.

5. If necessary, change its Service Manual to state that Federal Assistance grant funds
   cannot be used to operate and maintain Land and Water Conservation project areas as
   defined in the Land and Water Conservation Act project agreements or project
   boundary maps.

Department Response

Department officials understood that this was a National issue that will affect other states
as well. They stated that the Department would not change its process until the FWS
provided direction.

The Department’s position was that “at state expense” did not mean that state funding
was required for the maintenance of Land and Water Conservation Fund acquired
property. Officials stated that state expense could include funding that was not only
general fund dollars but also Federal and Fish and Wildlife Trust Fund dollars. They said
that the Land and Water Conservation Fund Act did not mean to restrict funding sources
used, but instead, it meant to assign perpetual maintenance responsibility to the grant
recipient. They further pointed out that there is no prohibition in the Sport Fish and
Wildlife Restoration Acts against using Federal Assistance funds to maintain Land and
Water Conservation Fund acquired or developed properties. The prohibition in the
Service Manual is merely guidance policy and does not have the effect of law. They
believed that the Service Manual misinterpreted the Land and Water Conservation Fund
Act.

FWS Response
Region 3 officials agreed with recommendation B.1 to request a Solicitor’s opinion on
the finding and recommendations. If necessary, they will take action on recommendations
B.2 through B.5.




                                         8
        Office of Inspector General Comments

        We consider the finding resolved, and the recommendations B.1 through B.5
        unimplemented. Accordingly, the FWS should identify an official responsible for
        implementation of the recommendations and a target date for implementation.

C. Departmental Asset Management Needs Improvement
The Department’s Equipment Inventory System contained incomplete data for equipment
purchased by the Department with Federal Assistance or license fee funds. As a result, the
Department could not assure us that Federal Assistance property was controlled, maintained, and
used only for Federal Assistance activities and was not able to identify the property in its
property inventory in accordance with requirements in 50 CFR § 80.18.

The Department of Natural Resource’s Bureau of Financial Management was responsible for
maintaining the inventory database for all personal property2 for the Department. We found that
the inventory database contained inaccurate data because some items were either not tagged or
did not have the correct serial number.

A Federal Assistance percentage number3 was used to distinguish Federal Assistance property
and to identify the portion of Federal Assistance funding used to acquire personal property in the
inventory system. On the personal property inventory list, 288 items (valued at $2,209,547) of
the 1,204 items (valued at $4,618,213) for the Divisions of Fisheries and Wildlife were identified
as Federal Assistance property. To determine whether personal property items existed, were in
usable condition, and were being used properly, we performed property verifications at nine
sites.4 Of the 254 items (valued at $947,516) on the inventory list at those sites, we selected a
sample of 32 items (valued at $713,834) for review. Of the 32 items, 26 of which were Federal
Assistance property, we were unable to locate one item (valued at $19,950) on the inventory.
For the remaining 31 items sampled, we found:

             ¾ Seven Federal Assistance property items, valued at $91,537, that did not have the
               correct serial number
             ¾ Six items, valued at $104,822 (including two Federal Assistance properties valued
               at $18,223) that did not have property tags.

        Recommendation
        We recommend that the FWS require the Department to follow its requirements for the
        management and control of property by conducting the annual verification and
        certification process, including verification of key identification numbers, an assessment
        of the property’s condition and maintenance, and the identification of its location.
2
  Personal property is defined as capitalized equipment (valued at or costing $500 or more), and certain sensitive
items, regardless of cost; e.g., artwork and antiques, computers, firearms and licensed equipment.
3
  The percentage number for Federal Assistance funds is a data field containing a percentage greater than 0.
4
  Boone Fisheries and Wildlife Research Station, Rathbun Hatchery, Chariton and Rathbun Fish Research Stations,
Clear Lake Wildlife Research Station, and Big Marsh, Mt. Ayr, Rathbun and Saylorville Wildlife Management
Units.

                                                         9
Department Response

Department officials did not concur with the finding and recommendation. They stated
that the annual inventories they conduct include verification of key identification
numbers and confirmation of item locations but, due to the large number of the
equipment items and their widespread locations, it was difficult to ensure 100 percent
accuracy. They added that all of the deficiencies reported were promptly corrected and
inventory records have been updated. The missing property item was later located by the
area supervisor at the location identified in the property inventory. They stated that they
will continue to stress to their staff the importance of accurately completing the annual
equipment confirmation and related paperwork in a timely manner.

FWS Response

Region 3 officials agreed with the report finding and recommendation, and stated that the
asset management deficiency represented a recurring finding from past audits. They
added that since the finding is recurring, Department management needs to increase
emphasis and oversight of asset management and control of property. The Region will
work with the Department to develop a Corrective Action Plan. The CAP will include
specific actions, responsible officials, due dates, and documentation needed to
substantiate actions taken.

Office of Inspector General Comments

We consider the FWS response sufficient to consider this finding resolved. We will
consider the recommendation implemented when the CAP is completed.




                                        10
                                                           Appendix 1

      IOWA DEPARTMENT OF NATURAL RESOURCES
      FINANCIAL SUMMARY OF REVIEW COVERAGE

                                                     Questioned
Grant Number       Amount           Claimed Costs
                                                       Costs
F-118-D-16     $    691,500              $130,487             $0
F-120-L-3           884,000                     0             0
F-125-E-13          545,010               493,799             0
F-125-E-14          454,051               467,138             0
F-128-D-7            30,000                     0             0
F-138-D-2          2,586,584               20,651             0
F-150-D-1          1,540,105               51,987             0
F-152-L-2          1,602,900              133,426             0
F-154-R-7            20,000                20,000             0
F-154-R-8            20,000                20,000             0
F-157-D-2            17,025                     0             0
F-159-D-2            40,700                28,742             0
F-160-R-5           792,700              1,026,496            0
F-160-R-6           954,300              1,018,914            0
F-161-D-2             4,000                   242             0
F-162-D-1           173,334                60,607             0
F-163-D-1            67,300                41,506             0
F-164-D-1           200,000                     0             0
F-165-D-1          1,303,333              824,649             0
F-165-D-2          2,810,666              194,036             0
F-166-D-1           493,380                 2,142             0
F-167-D-1           200,000               214,200             0
F-168-L-1           112,000                99,549             0
F-169-D-1           216,000               211,179             0
F-170-D-1           471,000               437,252             0
F-171-D-1          1,441,733               72,476             0
F-172-D-2           175,000                    85             0


                               11
                                                    Questioned
Grant Number     Amount            Claimed Costs
                                                      Costs
FW-43-D-33       4,877,000              5,312,046             0
FW-43-D-34       5,070,000              5,571,451            0
FW-47-L-1          648,150               316,565             0
W-114-S-32         631,631               894,583             0
W-114-S-33         724,779               885,549             0
W-115-R-27         326,622               338,368             0
W-115-R-28         344,000               326,816             0
W-122-L-2          174,572               179,972             0
W-124-L-1          127,500               103,167             0
               $ 30,770,875          $ 19,498,080           $0




                              12
                                                    Appendix 2

IOWA DEPARTMENT OF NATURAL RESOURES
            SITES VISITED

            Wildlife Management Units
                     Big Marsh
                       Mt Ary
                      Rathbun
                     Saylorville


            Wildlife Management Areas
                     Big Marsh
                       Dekalb
     Kellerton (Grassland Bird Conservation Area)
                       McCoy
                       Mt Ary
                      Ringgold
                     Saylorville
                   Sedan Bottoms


               Fishing/Boating Access
               Big Marsh Wildlife Area
              Boone Forks Wildlife Area
                  Deception Hollow
                     Fraser Dam
               Skillet Junction Access


                   Fish Hatchery
                      Rathbun


                 Research Stations
             Boone Fisheries and Wildlife
                  Chariton Fisheries
                  Clear Lake Wildlife
                  Rathbun Fisheries


                         13
                                                                           Appendix 3



             IOWA DEPARTMENT OF NATURAL RESOURCES
                    STATUS OF AUDIT FINDINGS
                     AND RECOMMENDATIONS


Recommendation                 Status                Action Required
A.1, A.2, B.1, B.2, B.3,   Findings resolved,   Provide a corrective action plan that
B.4, B.5, and C            Recommendations      includes the target date and the official
                           Unimplemented.       responsible for implementation of each
                                                recommendation. The unimplemented
                                                recommendations remaining at the end of
                                                90 days (after October 29, 2004) will be
                                                referred to the Assistant Secretary of PMB
                                                for resolution and/or tracking of
                                                implementation.




                                          14
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
